                   luation


                       0



      EVALUATION OF DOD WASTE SITE GROUNDWATER
              PUMP-AND-TREAT OPERATIONS



Report Number 98-090                       March 12, 1998




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD Home Page at: WWW.DODIG.MIL.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;          or
by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.       The
identity of each writer and caller is fully protected.




Acronyms

BRAC                  Base Realignment and Closure Act
DERA                  Defense Environmental Restoration Account
DERP                  Defense Environmental Restoration Program
DNAPL                 Dense Non-Aqueous Phase Liquid
EPA                   Environmental Protection Agency
NPL                   National Priority List
INSPECTOR GENERAL
DEPARTMENT OF DEFENSE
  400 ARMY NAVY DRIVE
AfUhJGTON. VFGINIA 22202
                                                                       March 12, 1998

MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
                 (ENVIRONMENTAL SECURITY)
               ASSISTANT SECRETARY OF THE ARMY
                 (INSTALLATIONS, LOGISTICS, AND
                 ENVIRONMENT)
               ASSISTANT SECRETARY OF THE NAVY
                 (INSTALLATIONS AND ENVIRONMENT)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (MANPOWER, RESERVE AFFAIRS, INSTALLATIONS
                 AND ENVIRONMENT)
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Evaluation Report on DOD Waste Site Groundwater Pump-and-Treat
         Operations (Report No. 98-090)


       We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report. Since
those comments were responsive, no further responses are necessary.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. William C. Gallagher, Evaluation Program
Director, at (703) 604-9270 (DSN 664-9270) or Mr. Michael R. Herbaugh,
Evaluation Project Manager, at (703) 604-9294 (DSN 664-9294). See Appendix F for
the report distribution. The evaluation team members are listed inside the back cover.




                                        Robert f . Lieberman
                                     Assistant Inspector General
                                             for Auditing
                            Office of the Inspector General, DOD

Report No. 98-090                                                     March 12, 1998
   (Project No. 6CB-0057)

                  Evaluation of DOD Waste Site Groundwater
                          Pump-and-Treat Operations

                                   Executive Summary

Introduction. In FY 1996, the DOD operated 75 pump-and-treat systems as a primary
remedy at sites where the groundwater is contaminated by chlorinated solvents. This
evaluation report discusses the financial and technical aspects of the operation and
maintenance of current pump-and-treat systems.

Evaluation Objectives. The objective was to determine the cost and effectiveness of
DOD groundwater pump-and-treat remediation efforts. Specifically, we focused on
groundwater contaminated with chlorinated solvents.

Evaluation Results. Rump-and-treat systems remediate contamination slowly, cost $40
million annually as of FY 1996, and will not allow DOD to meet required cleanup goals
within a reasonable time. Many pump-and-treat systems were designed before more
innovative technologies were available.

If DOD continues the operation of many pump-and-treat systems with indefinite shut-off
dates, increasing proportions of the Defense Environmental Restoration Account will be
required to fund the continuing operations and monitoring of the costly systems for the
foreseeable future. Alternative cleanup methods may be feasible and more appropriate
for many sites.

Summary Of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Environmental Security), the Army, the Navy, the Air Force and the Defense
Logistics Agency reevaluate existing pump-and-treat systems to determine if costs can
be reduced, performance improved, or systems replaced with alternative technology.
We also recommend that a systematic approach be developed in cooperation with
environmental regulators, the scientific community,  and the public to determine more
effective alternative methods for future groundwater clean up.

Management Comments. We received comments from the Deputy Under Secretary
of Defense (Environmental Security); Department of the Army, Assistant Chief of Staff
for Installation Management; Department of the Army, Corps of Engineers;
Department of the Navy; Department of the Air Force; and the Defense Logistics
Agency. The Deputy Under Secretary of Defense (Environmental Security), the
Defense Logistics Agency, Department of the Army, Department of the Navy, and the
Department of the Air Force generally or partially concurred with the finding and
recommendations. They are already in process of or planning to implement the
recommendations, to which they offered minor suggested changes. Management
comments indicate that, whenever feasible, natural attenuation is the preferred
comments indicate that, whenever feasible, natural attenuation is the preferred
technology for remediation of recent and all future cleanup actions. Management also
stated that Federal regulations require the review of remedial cleanup decisions every 5
years; however, DOD has not published policy requiring that review. See Part I for a
discussion of management comments, and Part III for the complete text of those
comments.

Evaluation   Response. Management comments were responsive. Many of those
comments were incorporated throughout the final report; however, some comments
were outside the scope of this project and consequently were not discussed in the
report. Also, we revised Recommendation 1. as suggested. We welcome the
Department’s assurances that actions are under way to pursue alternatives to pump-and-
treat technology. No further comments are required.




                                           ii
Table of Contents
Executive Summary                                                            i


Part I - Evaluation Results

      Evaluation Background                                                 2
      Evaluation Objective                                                  4
      Long Term Operations of DOD Pump-and-Treat Systems                    5

Part II - Additional Information
      Appendix A. Evaluation Process
         Scope                                                              16
         Methodology                                                        16
         Management Control Program                                         17
      Appendix B. Summary of Prior Coverage                                 18
      Appendix C. Questionnaire Data Analysis                               19
      Appendix D. Environmental Regulations                                 21
      Appendix E. Glossary                                                  22
      Appendix F. Report Distribution                                       24

Part III - Management Comments

      Deputy Under Secretary of Defense (Environmental Security) Comments   28
      Army Assistant Chief of Staff for Installation Management Comments    29
      Army Corps of Engineers Comments                                      35
      Department of the Navy Comments                                       44
      Department of the Air Force Comments                                  46
      Defense Logistics Agency Comments                                     54
Part I - Evaluation Results
Evaluation Background

    Discussion. In 1984, Congress established the Defense Environmental
    Restoration Program (DERP). This program earmarked special funds to study
    and cleanup contaminants at DOD waste sites. The 1996 DERP Annual Report
    to Congress states that DOD invested almost $15 billion in its environmental
    restoration program through FY 1996. Of that $15 billion, approximately
    $11.4 billion was invested in the Defense Environmental Restoration Account
    (DERA); and approximately $3.5 billion went to the Base Realignment and
    Closure Act (BRAC) account. See Appendix E for definitions of environmental
    cleanup terms.

    Financial Concerns. The FY 1998 National Defense Authorization Act
    indicates congressional concern about the growing costs associated with
    environmental cleanup at active and former military installations. In an earlier
    report in the Congressional Budget Office Papers, (January 1995) that same
    concern was raised:

               To date, the Congress has been able to authorize sufficient funding to
               meet      DOD’S requirements.       Given the increasing costs of
               remediation,      however, DOD may not be able to meet the
               requirements of its cleanup program on schedule and within budgetary
               projections.   The Department of Defense and the Congress could
               consider alternative approaches to the cleanup program to ensure that
               the department’s most important cleanup requirements are met within
               increasingly constrained budgetary allowances.

    DOD Instruction 4715.7, “Environmental Restoration Program”. This
    instruction, released April 22, 1996, provides guidelines, implements and
    refines policies, assigns responsibilities, and prescribes procedures for the
    DERP and the BRAC environmental restoration program. This DOD instruction
    applies to all DOD components and to Defense agencies with land management
    responsibilities. In general, the goal of the DERP and BRAC Environmental
    Restoration Program is to reduce, in a cost-effective manner, the risks to human
    health and the environment as a result of contamination because of past DOD
    activities. Specifically this goal is accomplished through policy developed by
    Deputy Under Secretary for Defense (Environmental Security) through the
    Under Secretary of Defense for Acquisition and Technology.

    With respect to DOD groundwater cleanup and the use of pump-and-treat
    systems as a method of remediation, the Military Departments do not have a
    formal policy. Although the National Oil and Hazardous Substance Pollution
    Contingency Plan requires a review every 5 years of final cleanup remedies,
    there is no DOD requirement to revisit active pump-and-treat systems at DOD
    sites. At the time of data collection for this report, those systems continued to
    operate without any form of review to determine their efficiency and
    effectiveness. See Appendix D for environmental laws and regulations
    applicable to DOD environmental remediation.

                                             2
DOD Pump-and-Treat Systems. Pump-and-treat systems are one of the most
widely used groundwater cleanup technologies. Conventional pump-and-treat
systems involve pumping contaminated groundwater to the surface for
treatment. The systems came into wide use in the mid-1980s; however, by the
early 199Os, regulators, scientists, DOD, and the Military Departments began
questioning the effectiveness of pump-and-treat systems.

Groundwater pump-and-treat systems can be used to contain a plume (thus
preventing spread of contamination), or to clean up groundwater. Several
options or groups of options are available to remediate contaminated
groundwater:

         provide in-ground treatment/containment,

         provide above ground treatment,

         remove or isolate the source of contamination,

          discharge treated water to surface water bodies with appropriate
permits, or

       o abandon the source of supply.

In-ground treatment was generally not an option until 2 years ago. Generally,
several options are coupled in order to achieve the desired cleanup results.
Groundwater pump-and-treat systems extract groundwater from underground
water supplies and remove contaminants from the water by chemical or physical
treatment of the water. Treated water is returned to the ground, processed
through a wastewater treatment facility, or depending upon the resulting water
quality and regulator and public acceptance, it may serve as a water source for
human consumption. See Appendix E for definitions of environmental cleanup
terms.

Technical Concerns. The effectiveness of pump-and-treat systems depends
directly on site conditions and contaminant chemistry. As the complexity of the
contaminated site increases, the likelihood that the pump-and-treat system will
effect a cleanup that meets drinking-water standards decreases. Much of the
regulatory guidance for groundwater cleanup was written before 1989, when
the limitations of pump-and-treat systems were not fully appreciated.
Therefore, existing regulatory requirements for groundwater cleanup do not
account for limitations inherent in pump-and-treat technology.

Cleanup of groundwater remains one of the most vexing problems to DOD.
Chlorinated solvents are particularly difficult to clean up; specifically those
categorized as dense non-aqueous phase liquids (DNAPLs) such as
trichloroethylene which is used for cleaning equipment at many military
installations. Organic liquids are composed of one or more contaminants that
do not easily dissolve with water and are denser than water. However, enough
chlorinated solvents dissolve in water to cause problems. The Department of the

                                    3
     Army points out that the existence of DNAPLs is recognized by the
     Environmental Protection Agency as a prime rationale for approving a technical
     impracticability waiver from existing regulations.

     Once a DNAPL contaminates groundwater, the movement of the water under
     ground spreads the contamination into a plume which radiates outward from the
     source of contamination and migrates, for the most part, in the direction of
     water movement. Containing this plume and preventing its migration is the sole
     purpose of some pump-and-treat systems. In addition to basic plume
     containment however, some systems are designed to clean up the groundwater.
     The National Research Council Committee on Groundwater Cleanup
     Alternatives states that conventional pump-and-treat systems will seldom be able
     to restore contaminated groundwater to drinking water standards. Groundwater
     scientists and engineers generally agree that complete aquifer restoration is an
     unrealistic goal for many, if not most, contaminated sites.

     Theoretical cleanup times range from years to centuries or more, depending on
     the contaminant and geologic characteristics. Furthermore, the scientific
     community has not agreed on the best methods for estimating cleanup times
     under complex geologic and chemical conditions. The National Research
     Council found that many sites requiring groundwater cleanup, will remain
     contaminated above drinking water standards for the foreseeable future even if
     the best available technologies are used. Further, the National Research
     Council points out that an important consideration in evaluating the
     effectiveness of pump-and-treat systems is not only the level of decontamination
     they can accomplish but also how long an acceptable level of decontamination
     will take.



Evaluation Objective

     The objective of this evaluation was to determine the cost and effectiveness of
     DOD groundwater pump-and-treat remediation efforts. Specifically, we focused
     on sites where groundwater is contaminated with chlorinated solvents.
     Although a review of the management control program was an originally
     announced objective, we determined that it would not be useful to review that
     aspect beyond ascertaining that the DOD components have not been reporting
     material control weaknesses related to these systems. See Appendix A for a
     discussion of the scope and methodology. See Appendix B for a summary of
     prior coverage related to the specific evaluation objective.
           Long Term Operations of DOD
           Pump-and-Treat Systems
           DOD maintained at least 75 groundwater pump-and-treat systems to
           remedy contaminated groundwater despite the recent development of
           alternative methods which might remediate contaminated groundwater
           more effectively. Alternatives to these systems and more effective
           remediation strategies for other sites are being developed. However,
           because of the lack of DOD emphasis, in the past, on the remediation
           related portion of the Defense Environmental Restoration Program,
           pump-and-treat systems remain in place without adequate analysis of
           efficiency and effectiveness. Consequently, DOD organizations initially
           did not develop procedures to determine the most effective means to
           remediate contaminated groundwater because pump-and-treat systems
           were the only means available and acceptable to the public and
           regulators at the time of implementation. As a result, DOD had costly,
           maintenance-intensive systems that may not be the most effective means
           to restore the environment; and in the face of a dwindling DERA
           budget, the costs for environmental clean up could continue to rise.
           Awareness of the need to seek alternatives is growing, however.

DOD Pump-and-Treat Systems

    Number of Systems. DOD installed 78 pump-and-treat systems (75 are in
    operation today) at sites where the groundwater is contaminated by chlorinated
    solvents. Of the 75 systems, 38 are for containment only and 37 are for
    containment and treatment. Figure 1 shows the number of systems becoming
    operational each year and the time frames in which decisions were made to use
    pump-and-treat systems. Figure 1 shows that the number of pump-and-treat
    systems put into operation in 1996 is noticeably lower than in 1995; however,
    our survey did not identify the reason. Based on responses to our questionnaire,
    we expect that most of those systems will continue to operate for many years
    into the future. The costs of continuing to operate pump-and-treat systems have
    increased on an annual basis reaching $40 million in FY 1996. Projected
    cumulative costs are estimated at $1 billion in the year 2020 for the 75 systems
    that are operational today. Additionally, DOD has identified 97 new sites where
    the groundwater is contaminated with chlorinated solvents. Using the average
    annual cost to operate a pump-and-treat system in 1996, the total costs to
    operate 97 additional pump-and-treat systems would be $57 million each year.
    Projected out to the year 2020, the cumulative cost would be an additional $1.4
    billion. This projected cost does not take into consideration the possibility that
    some of the 97 new sites may be remediated through natural attenuation and
    well head treatment as alternative remedies.
Long Term Operations of DOD Pump-and-Treat Systems




                        80 .si 65 86 a7 88 88 90 91 ~2 a3 94 95 96
                                             Year




               Figure 1: Number Of Pump-And-Treat Systems
               Becoming Operational By Year (75 of 78)

      Three of the 78 systems are not in operation today. Two have been turned off
      and one is in a “standby” mode. Responses to the questionnaire indicate that
      two of the three systems had no agreed-upon cleanup standard with the
      regulators and therefore were shut off after a relatively short operational period.
      The other pump-and-treat system was constructed, tested, and immediately
      placed in a standby mode. According to the responses to our questionnaire, the
      decision to install those pump-and-treat systems was premature and based on
      political pressure to get a treatment system in place. The wisdom of installing
      pump-and-treat systems at those sites appears questionable.

      Open-Ended Operations. Many of the current DOD pump-and-treat systems
      are operating at sites where the groundwater is contaminated by chlorinated
      solvents which require long-term operations to remedy. Of the 75 active
      systems, 48 are interim cleanup actions with no official decision on what the
      final remedy will be. According to the Department of the Army Corps of
      Engineers, in many cases interim cleanup actions are put in place in response to
      political pressure and are not designed to remediate the aquifer. In addition, it
      has not been determined what DOD will do if it becomes obvious that those
      systems will not meet their cleanup goals in a reasonable time. In other words,
      these systems will continue to operate until the regulatory community agrees
      upon an acceptable final cleanup solution or the system is re-evaluated and an
      alternative remedy selected. Only 11 of the 75 systems evaluated have an
      estimated closure date, thus the remaining 64 are open-ended in terms of
      operational status, that is, operating indefinitely.

      In the past, the cost of the open-ended pump-and-treat operations has not been a
      significant problem because the DOD environmental cleanup program has been
      provided sufficient funds to meet legislative and regulatory requirements.
      However, the cost becomes increasingly critical in light of the constrained and
      decreasing Defense budget; and Congress and the public are highly critical of
      the slow pace and high cost of Federal cleanup programs.
                                            6
                         Long Term Operations of DoD Pump-and-Treat Systems



DOD Pump-and-Treat System Effectiveness
    Effectiveness. Groundwater engineers and scientists generally agree that
    complete restoration of a contaminated aquifer is an unrealistic goal. The
    limitations and inefficiencies inherent in pump-and-treat technology arise from
    the difficulties of effectively removing the contaminants absorbed to the aquifer
    material (silt, sand, and other geologic material); not in extracting groundwater
    from the ground. As a result of those limitations, other technologies have been
    developed or are under development and hold promise for the effective cleanup
    of contaminated groundwater soils in the future. Most pump-and-treat systems
    were installed before new technologies became available within the last two to
    three years.
    Current Technology. The most widely used and accepted technology for the
    cleanup of groundwater contaminated with chlorinated solvents is pump-and-
    treat. While other technologies show promise in the groundwater cleanup
    arena, a variety of barriers have discouraged those involved in groundwater
    cleanup from assuming the risks associated with using new technologies that
    lack a proven track record. Because of the difficulties arising from most
    pump-and-treat systems, technology applicators such as the Department of the
    Air Force Human Systems Detachment at Armstrong Laboratory and
    Technology Laboratories at the Air Force Center for Environmental Excellence
    have begun looking into other methods of treatment of contaminants at existing
    sites.
    Our analysis corroborates the difficulties of timely remediation of contaminated
    groundwater. Thirty-six DOD systems are expected to operate, on average, for
    29 years. Furthermore, our data indicates variations in the contaminant
    concentrations of the pumped water at the 75 DOD sites where pump-and-treat
    systems were operating:
            0 9 percent are increasing,

            o 47 percent are decreasing, and

           o 31 percent have established a state of equilibrium          and are not
    changing.

    Future Requirements. DOD has identified 97 additional sites where the
    groundwater is contaminated by chlorinated solvents. These will require
    cleanup actions. The most effective technology for cleanup of future sites is not
    yet known, but the data provided to our questionnaire clearly shows the great
    expense related to traditional groundwater pump-and-treat systems.
     If DOD chooses pump-and-treat systems as a method of cleanup, the future
     continuing operations costs could be astronomical. Using the average annual
     cost to operate a pump-and-treat system in 1996, the cost for those 97 future
     systems would be $57 million each year. Projected out to the year 2020, the
     cumulative cost would be $1.4 billion. However, that extent of continued
     reliance on pump-and-treat is unlikely.
                                          7
Long Term Operations of DOD Pump-and-Treat Systems


      Emerging Technology. With approval by regulators and acceptance by the
      community, there are significant new technologies that may prove quite
      successful in the cleanup of chlorinated solvents in groundwater. The Deputy
      Under Secretary of Defense (Environmental Security) and the Department of the
      Army state that natural attenuation is their preferred remedy for groundwater
      contamination when feasible. Most are still in the study or demonstration phase
      and are not likely to be proven technologies for another 10 to 20 years. Those
      technologies (defined in Appendix E) which seem the most promising are:
             o intrinsic bioremediation,

             0 air sparging,

             o reactive barriers (walls), and

             o phytoremediation.

      Other technologies may also be as promising but are only in the initial stages of
      development. With regard to those new and developing technologies, it appears
      that regulators are beginning to consider, and in some cases accept, alternatives
      to the traditional pump-and-treat technology.



DOD Pump-and-Treat System Efficiency

      The potential cost of remediating groundwater on Defense facilities is unknown.
      The DOD is unable to estimate the total number of contaminated groundwater
      sites that must be treated and continues to find new sites each year as well as
      discovering that some existing sites are more contaminated than originally
      thought.

     Present. Based on the data received from the questionnaire for this evaluation,
     the average annual continuing operations costs (energy, manpower, repairs,
     sampling, analyses, monitoring and new monitoring wells, etc.) at DOD sites
     where the groundwater is contaminated by chlorinated solvents averaged
     $583,685 per system in 1996 (an increase of 27 percent since 1986 - does not
     differentiate between inflation and actual cost increase). Table 1 shows this data
     and includes the predicted annual average cost for a system projected out to the
     year 2020. From that data, we predict the average annual costs to operate,
     maintain, and monitor one system will increase to $742,000 by the year 2000,
     $1 million by the year 2010, and will further escalate to $1.3 million by the
     year 2020.




                                           8
                    Long Term Operations of DoD Pump-and-Treat Systems




    Table 1: Average Annual Cost, Actual Cost Through The Year




                .      .   * .   _.       .   .   ..   .
*Al verage annual costs mcluae tne total annual conrmumg operanons COSI,I .us
the total annual monitoring cost for the pump-and-treat systems included in the
evaluation.




                                      9
Long Term Operations of DOD Pump-and-Treat Systems


      Figure 2 demonstrates the increasing cost to operate pump-and-treat systems at
      sites where the groundwater is contaminated by chlorinated solvents. From this
      figure it is easy to see the annual increasing costs associated with open-ended
      systems; however, the annual costs may decrease or remain constant depending
      upon the number of new pump-and-treat systems for that year.


                45
                                                                                         1
                40

                35

                30




                     81   82 83   84   85 88   87 88   89 99   91 92 93   94   95   98

                                                  Year



           Figure 2: Total Annual Operations and Maintenance
           Plus Monitoring Costs

      Future. Figure 3 shows the estimated operational life of each DOD pump-and-
      treat system. Each system has an end point in this figure showing the year in
      which it became operational and an end point that indicates its estimated
      operational life. The data exhibited is probably conservative because many
      pump-and-treat system designers selected 30 years as their estimated operational
      life. That is the maximum number of years that is projected for funding during
      the feasibility study and may not reflect the actual number of years that the
      system would have to operate to attain its goals. Project life could also be less
      if the maximum contaminant level increases or natural attenuation proceeds
      more rapidly than expected.




                                                  10
                        Long Term Operations of DoD Pump-and-Treat Systems




                 -“m3SFiR~F?~G~%z?!zziM8
                          Systems (70 of 78) Estiiing   Years Operational




           Figure 3: The Year Each System Became Operational
           Versus The Estimated Operation Life Of The System

   Further analysis of the data in Figure 3 indicates that 36 of 70 (51 percent)
   pump-and-treat systems will still be operational after the year 2010, 29 of 70
   (41 percent) will still be operational at the year 2020, and 7 of 70 (10 percent)
   will remain operational after the year 2030. It should be noted that some of
   those 70 systems may have to operate longer than estimated to meet required
   cleanup goals. Similarly, it is important to note that this analysis only includes
   those systems currently operating and does not include any of the planned future
   systems.

   Using Table 1 and Fi re 3 above, we project the cumulative operational costs
   to be in the range of P45 million in 1997, $650 million in 2010, and $1 billion
   in 2020. Again this projection is only for those systems currently in operation
   and does not take into consideration any new future systems or cost avoidance
   realized by the shut down of interim systems prior to the end of their estimated
   operational life.



Summary

   There is growing recognition that traditional pump-and-treat systems may not be
   the best solution at all DOD groundwater remediation sites. This is not to say
   traditional pump-and-treat systems cannot clean up contaminated groundwater;
   however, the effectiveness of those systems depends strongly upon the
   properties of the contaminant and hydrogeologic properties of the site. Pump-
   and-treat systems are good for restoring relatively simple sites; for example,
   those sites where the geology is fairly uniform and nonstratified. Pump-and-
   treat systems work well to contain plumes but are very costly to operate and

                                            11
Long Term Operations of DOD Rump-and-Treat Systems


      maintain. Our evaluation determined that a pump-and-treat system remediates
      an aquifer contaminated with chlorinated solvents very slowly. There may be
      other, more cost-effective options than operating a pump-and-treat system for
      extremely long periods of time. Each contaminated site is different and the
      decision to install a pump-and-treat system must be based on the extent of
      contamination, site specific characteristics, public stewardship, input from the
      public and regulatory agencies, and assessment of risk (threat to human health
      and the environment). Because of regulator emphasis on containing all water
      contaminated above the maximum contaminant level or reducing all
      concentrations to below the maximum contaminant level, risk has played a
      rather insignificant role. From the analysis of the data we gathered on the
      continuing operation costs of pump-and-treat systems, it is clear that the costs
      are rising while the DERA funding is decreasing. In this era of decreasing
      budgets, criticism from Congress and the public, DOD should consider
      implementing a more aggressive program toward cleaning up contaminated
      groundwater sites more efficiently and effectively (better, faster, and cheaper).

      Additionally, the public and the regulatory community are strongly voicing
      concerns that a conventional pump-and-treat system may not be able to clean up
      some types of groundwater contamination. The time and money required to
      clean up groundwater vary greatly according to the cleanup standards that are
      set and the current pump-and-treat technology. Since virtually all DOD cleanup
      work has yet to be done, the prospects for savings in the long term lie in
      developing less expensive methods of cleanup. Within the constrained budget
      climate, DOD should not expend valuable resources on pump-and-treat systems
      for contaminated sites which pose minimal risk. DOD should, in close
      coordination with the regulatory community, actively explore less expensive
      methods of cleanun for those sites that are contaminated but do not pose an
      immediate or sho; term risk to human health and the environment. _



Recommendations, Management Comments, and Evaluation
Response

      Revised Recommendation. As a result of management comments, we revised
      Recommendation 1. to clarify the actions for consideration when reevaluating
      existing pump-and-treat systems.

      We recommend that the Deputy Under Secretary of Defense
      (Environmental Security), the Department of the Army, the Department of
      the Navy, the Department of the Air Force, and the Defense Logistics
      Agency:

              1. Reevaluate the rationale to use pump-and-treat systems at
      existing sites to determine whether and how pumping can be changed to
      reduce costs or improve performance and whether pump-and-treat systems
      should be replaced by alternative technology.

                                           12
                    Long Term Operations of DOD Rump-and-Treat Systems


       2. Develop a systematic approach in cooperation with environmental
regulators, the scientific community, and the public to determine
alternative, more effective methods for future groundwater clean ups.

Deputy Under Secretary of Defense (Environmental Security) Comments.
The Deputy Under Secretary of Defense (Environmental Security) concurred
with our recommendations and is planning to ask the Tri-Service Environmental
Working Group to develop uniform procedures to determine if pump-and-treat
systems that can be modified to reduce costs, improve performance, or be
replaced by alternative technology. Both the Deputy Under Secretary and the
Military Departments indicated they had realized the limitations of the pump-
and-treat approach and were working to find alternatives. The Deputy Under
Secretary stated that the DOD was much less inclined to install pump-and-treat
systems now than in the past.

Army Assistant Chief of Staff for Installation Management Comments. The
Army concurred with our recommendations and is actively working to initiate
the recommendations. The Army specifically referred to ongoing cooperation
with the other Services, EPA, and the scientific community.

Navy Comments. The Navy concurred and has conducted a review regarding
Recommendation 1 ., and has plans to complete Recommendation 2. in 1998.

Air Force Comments. The Air Force concurred with our recommendations
and suggested that Recommendation 1. should specifically include cost
reduction, performance improvement, and alternative technology.

Defense Logktics Agency Comments. The Defense Logistics Agency partially
concurred with the recommendations and provided examples to indicate their
methods of current compliance.

Army Corps of Engineers Comments. Although not required to comment, the
Army Corps of Engineers suggested that we revise the recommendation to
include cost savings and optimizing existing pump-and-treat system
performance.

Evaluation Response. Comments by the Army, the Navy, and the Air Force
were responsive. Many of those comments were incorporated into this report;
however, some comments were outside the scope of this project and
consequently were not discussed in this section in the report. The suggestion by
the Army Corps of Engineers and the Air Force to include costs, performance,
and innovative technology in the recommendation was incorporated into
Recommendation 1. Because all addressees were responsive, no further
comments are required.




                                   13
Part II - Additional Information
Appendix A. Evaluation Process


Scope

    This evaluation focuses on quantifying the magnitude of financial and technical
    problems associated with DOD groundwater pump-and-treat systems. The scope
    of the evaluation included all previous and currently operating DOD sites
    contaminated with chlorinated solvents,



Methodology

    To accomplish the evaluation objectives, we developed detailed questions and
    requested all DOD installations complete a questionnaire for each pump-and-
    treat system. The universe was all DOD installations where the groundwater is
    contaminated with chlorinated solvents and that utilized a pump-and-treat system
    as the selected remedy. The Military Departments and the Defense Logistics
    Agency mitially reviewed a copy of the draft questionnaire and made
    suggestions to improve the questionnaire. After the suggested changes were
    made to the questionnaire by the IG, DOD; final distribution copies were sent to
    the Military Departments, Defense Logistics Agency, and the U.S. Army Corps
    of Engineers for distribution to their field installations. No computer-processed
    data were used in the course of this evaluation. The data we obtained were
    current as of September 1996.

    Use of Technical Assistance. Technical assistance was provided during this
    evaluation by members of the Quantitative Methods Division of the OAIG-
    AUD. Assistance provided was in the form of statistically projecting cost data
    using the method of linear least squares regression.

    Evaluation Type, Dates, and Standards. We performed this economy and
    efficiency evaluation from July 1996 through April 1997 in accordance with
    standards issued by the Inspector General, DOD.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DOD, the Environmental Protection Agency, and the
    Department of Energy. Further details are available on request.




                                        16
                                                Appendix A. Evaluation Process



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Controls. We did not review the
    Management Control Program beyond ascertaining that the DOD Components
    have not reported any material control weaknesses related to pump-and-treat
    systems. This evaluation disclosed no material control weaknesses.




                                      17
Appendix B. Summary of Prior Coverage


General Accounting Office

    Report No. NSIAD-94-133, “Environmental Cleanup: Too Many High
    Priority Sites Impede DOD’SProgram,” April 21, 1994. The report
    concludes that too much of DOD’Senvironmental cleanup program was devoted
    to studying the problem rather than cleaning up installations. Natural cleanup
    of highly contaminated drinking water aquifers could take hundreds of years
    because cleaning up aquifers is a relatively new field and efforts to speed up the
    process have been expensive and have achieved limited success. Groundwater
    experts believe it is necessary to isolate the contamination source and then by
    using various methods, including natural cleanup and pump-and-treat systems,
    confine the spread of the pollution and cleanup the groundwater. There were no
    recommendations for this report.



Inspector General, DOD

    Program Evaluation, “A Study Comparing Department of Defense and
    Environmental Protection Agency/Private Sector Environmental
    Cleanups,” January, 1995. The results of this limited study conclude that
    DOD cleanups may be conducted in a manner very similar to the EPA cleanups.
    In some cases the DOD cleanup sites were cheaper, better and faster in terms of
    site cleanup. The Inspector General, DOD study suggested that DOD consider
    investigating various approaches to reduce site characterization time and costs
    and expedite completion of Records of Decision. Use of low-cost well
    construction materials could reduce costs and expedite completion of site
    characterization studies. The study also suggested that the DOD establish an
    installation-level technical information exchange network to assist its remedial
    project managers in keeping abreast of the various innovative DOD cleanup
    approaches used in their local geographic areas. This study did not include
    formal recommendations and the DOD did not respond.




                                        18
Appendix C. Questionnaire Data Analysis
   The results of the Inspector General, DOD questionnaire indicated that 75 of 78
   groundwater pump-and-treat systems (3 are not currently operating) are treating
   chlorinated solvents within the DOD, and of those, 56 are on the National
   Priority List (NPL). Of the 78 pump-and-treat systems, 37 are designed to
   contain and clean the contaminated groundwater while 40 are designed to only
   contain the contaminated groundwater, and 1 was a well head treatment system.

   Analysis of the information provided for the 37 systems designed to contain the
   plume and clean up the contaminated groundwater indicates:

             average operational life, for 36 responses, is 29 years,
             construction costs are $124 million,

             system modification costs are $29 million,

             concentration levels decreased in 22 systems,

             concentration levels increased in two systems,

              concentrations levels leveled off in nine systems, and the remaining
   four systems do not have enough data to quantify.

   Analysis of the information provided for the 40 systems designed to only
   contain the plume indicates:

          o average operational life, based on 33 responses, is 22 years,

          0 total construction costs are $110 million,

          o total system modification costs are $17 million,

          o concentration levels decreased in 15 systems,
          o concentration levels increased in five systems,

          o concentration levels leveled off in 13 systems, and the remaining 7
   systems do not have enough data to quantify.

   Systems Operational By Year. Part I, Figure 1 shows the number of systems
   becoming operational by year. Part I, Figure 3 shows the number of systems
   and the years they will be operating after start up.




                                       19
Appendix C. Question&ire Data Analysis


      Continuing Operations Cost. Part I, Figure 2 shows the total annual
      continuing operations and monitoring costs. These data are also shown in
      Table 1 with the predicted annual costs for continuing operations and
      monitoring of one of these systems. Predictions are based on linear least
      squares analysis of the actual data from 198 1 through 1996. To date,
      construction costs of the systems are over $235 million, and modification costs
      over $46 million.




                                         20
Appendix D. Environmental Regulations
   National Oil and Hazardous Substance Pollution Contingency Plan. The
   National Oil and Hazardous Substance Pollution Contingency Plan describes
   how the mandates from Congress specified in the Comprehensive Environmental
   Response, Compensation, and Liability Act will be carried out in practice.
   Central to this Plan, is that groundwater cleanup goals should meet chemical-
   specific “applicable or relevant and appropriate requirements” from other
   regulations, known as ARARs.

   Comprehensive Environmental Response Compensation and Liability Act.
   The Act governs any site where there is a release or a threat of release of a
   hazardous substance. Typically, the Environmental Protection Agency uses this
   Act to order cleanup at closed or abandoned waste sites. T’he goal setting
   process for cleaning up groundwater at CERCLA sites is detailed in the
   National Oil and Hazardous Substance Pollution Contingency Plan.

   Resource Conservation and Recovery Act. The Resource Conservation and
   Recovery Act provides for cradle-to-grave management of hazardous waste.
   The EPA uses the statute to require groundwater and soil cleanup at operating
   hazardous waste treatment, storage, and disposal facilities and at closed facilities
   that once operated under the RCFU program. The primary EPA regulation for
   implementing groundwater cleanups under RCRA is known as the Corrective
   Action Rule. The Corrective Action Rule has not been finalized by EPA, but
   the EPA is nevertheless using it to oversee ongoing work.




                                        21
Appendix E. Glossary
   Air Sparging. The injection of air below the water table to strip volatile
   contaminants from the saturated zone and to promote contaminant
   biodegradation.

   Chlorinated Solvent. A solvent containing at least one chlorine atom in its
   chemical structure. Typically, these compounds are used to dissolve substances
   that do not dissolve easily in water. Because they are used for a wide variety of
   purposes--from manufacturing, to degreasing, to dry cleaning--chlorinated
   solvents are common groundwater contaminants.

   Containment. Refers to systems that prevent the further spread of
   contamination. These systems control the groundwater flow direction around
   the contaminated site by using pumps, injection wells, and cutoff walls placed at
   strategic locations.

   Conventional Pump-and-treat Systems. Systems that extract contaminated
   groundwater and treat it at the surface.

   Denser-Than-Water Nonaqueous-Phase Liquid. An organic liquid that is
   denser than water and is composed of one or more contaminants that do not mix
   readily with water. Chlorinated solvents are DNAPLs which are very slightly
   soluble in water. Most groundwater contaminant plumes resulting from
   DNAPLs consist of chlorinated solvents dissolved in groundwater (aqueous
   phase) rather than unmixed, nonaqueous phase of the solvent.

   Intrinsic Bioremediation.   A type of in-situ bioremediation that uses naturally
   occurring microorganisms to degrade contaminants without taking any
   engineering steps to enhance the process.

   National Priority List. A list compiled by the EPA of uncontrolled hazardous
   substance releases in the United States that are priorities for long term remedial
   evaluation and response.

   Natural Attenuation.   The reduction of contaminant concentrations in the
   environment through biological processes (biodegradation, plant and animal
   uptake), physical phenomena (dispersion, dilution, volatilization, sorption,
   desorption), and chemical reaction (ion exchange, complexation, abiotic
   transformation). Natural attenuation is not a no-further-action alternative.
   Extensive modeling is typically required.

   Nonaqueous-Phase Liquid. A liquid solution that does not mix easily with
   water. Many common groundwater contaminants, including chlorinated
   solvents and many petroleum products, enter the subsurface in nonaqueous-
   phase solutions.



                                        22
                                                          Appendix E. Glossary


National Oil and Hazardous Substances Pollution Contingency Plan. The
regulation describing how the mandates from Congress specified in the
Comprehensive Environmental Response, Compensation, and Liability Act will
be carried out in practice.

National Pollutant Discharge Elimination System. Program which regulates
wastewater discharges to surface waters.

Phytoremediation.    The general use of plants to remediate contaminated
groundwater.

Pump-and-Treat System. Most commonly used type of system for cleaning up
contaminated groundwater. Pump-and-treat systems consist of a series of wells
used to pump contaminated water to the surface and a surface treatment facility
used to clean the extracted groundwater.

Reactive Barriers. Also known as passive barriers or passive treatment walls
or trenches. An m-ground trench that is backfilled with reactive media to
provide passive treatment of contaminated groundwater passing through the
trench.

Risk Assessment. The evaluation of the degree of hazard or risk association
with exposure to contamination of an environmental medium or media by
chemicals or radioactive waste for a receptor or receptor populations (human or
ecological).

Risk Management. The process of deciding whether remedial actions are
warranted, or the extent of remedial actions required, in light of the results of a
risk assessment.

Wellhead Treatment. Treatment of extracted water to remove chemicals prior
to its use as drinking water.




                                     23
Appendix F. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Environmental Security)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant to the Secretary of Defense (Public Affairs)


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Installations, Logistics, and Environment)
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Installation and Environment)


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations and
   Environment)
Deputy Assistant Secretary of the Air Force (Environment, Safety and Occupational
   Health)




                                           24
                                                    Appendix F. Report Distribution



Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Council
   Inspector General, National Security Council
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office


Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                           25
Part III - Management Comments
Deputy Under Secretary of Defense
(Environmental Security) Comments

                   OFFICE OF THE UNDER SECRETARY                      OF DEFENSE
                                     3ooo DLF2NSE ?ENTAGON
                                    WASHINGTON. DC 2D3D1-5ooo




    MEMORANDUM TO DOD INSPECTOR GENERAL
                 (ATTN: MR. WILLIAM C. GALLAGHER, EVALUATION PROGRAM
                 DIRECTOR)

    SUBJECT: Comments on Draft Proposed Evahration Report: “Evaluation of DOD Waste Site
             Groundwater pllmp-and-Treat Gpcrations”

          Thank you for soliciting our comments on your draft report We concur with the
    recommendations of the report and offer tbc following comment

            We note that in 1596 there were less pump-and-treat systems put in place than during the
    previous year. Our technical knowledge has advanced concerning the value of these systems in
    terms of effectiveness, timeliness, and cost. We are much b inclined today to choose a pump-
    and-treat system than we wcrt 5 or 10 years ago. One alternative, which we fully support, is the
    use of natural attenuation for nmediation whenever feasible. We plan to ask the Tri-Service
    Environmental Working Group to develop uniform procedures to determine how pump-and-treat
    systems can be modified to mduce costs, improve pct5nmance, or be replaced by alternative
    technology.

          If you have questions, or if additional information is required, my   staffcontact is Mr. Vie
    Wicszek. available at (703) 697-9789.




                                     ‘   Sherri W. Goodman
                                         Deputy Under Sccrctaty of Defense
                                          (Environmental Security)




                  Environmental      Securi@       f    -Defending Our Future




                                                28
Department of the Army, Assistant Chief of
Staff for Installation Management Comments




                                                                          G%
     MEMORANDUM        THR

                                     ~~,,p-~~
                              DEPUTY
                                THE ARMY (ENwR0NMENT,   SAFETY. AND
                                OCCUFATIONAL  HEALTH), OASA(I,L&E)

     FOR INSPmOR       GENERAL. DEPAJUMENT OF DEFENSE (AUDITING)

     SUEJECT Review and Comment of Eva.luatio~~Report MIapsrtmDt of Defense
     Waste Site Gmundwatcr Pump-and-TreatOpmtions (Project No. 6CB-0057)


     I. Reference memorandum. OASA(l,L&E), 6 Nov 97. SAB. Anny comnxnts on the
     draft evaluation report from the Office of the Inspector General on DOD Waste Site
     Ckoundwter Pump-and-TreatOpcruions arc cnclorcd.

     2. OACSfM point of contact for this action is Mr. Jewel Simmons. (703) 6934679.




                                               Major Gcnmal, GS
                                               Assistant Chief of Staff
                                                    for InstallUion Management




                                               29
               Department of the Army, Assistant Chief of Staff
               for Installation Management Comments



Final Report
 Reference




                       DAIMEPR
                       SUBJECT: Review and Comment of Evaluation Report on Department of Defense Waste Site
                       Groundwater Pumpand-Treat Opcmtionr (Project No. 6CB-0057)


                       1. Gemal Comment: The Do3 IG Evahration Report on DOD Waste Site Groundwater
                       Pump-and Treat Operations reached the same conclusions regarding the efTectivencss and cost-
                       benefit of pumpand-treat that the Army and other Services came to several years ago. When the
                       Army and otbcr Services became aware of the imfftciency with existing pumpand-treat systems
                       they began developing guidance and policy for the application of natural attenuation to resolve
                       groundwater contamination challenges. Although at timer difficult. the Army has made great
                       strides in gaining acceptance of natural attenuation by the regulatory agencies and the public.
                       The most recent successes have been the signing of a natural attenuation Record of Decision
                       (ROD) at Tobyhanna Army Ikpot (Scp 97) and the signing of a ROD requiring groundwater
                       monitoring and implementation of well-head treatment of municipal wells to ddmss a
                       trichlorocthylenc plume under Schofield &my Barracks (Peb 97). Both of these installations arc
                       on the National Priorities List (NPL) and the acceptance of less than active mmcdiation of the
                       groundwater shows progress in the Army’s effotts to avoid costly remedies. The DOD IG Report
                       fails to mention the Army’s efforts in promoting the use of natural attenuation.

                       2.   Specific Comments:

                            a. Page 2, Discussion - The report states that ‘I...DOD invested almost S 15 billion in its
Revised                environmental restoration program in PYY6.” This statement should mad *... through PY96,”
                       not in PY96.

                            b. Page 2, last paragraph - The repon states that there is no requirement to revisit active
                       pumpand-tnat systems at DOD sites. However, the National Oil and Haxardous Substance
                       Pollution Contingency Plan (NCP) sequins that at least every five years the lead agency (Army.
                       for Army sites) shall conduct a review of final mmcdies at sites whcm waste exceeds levels
                       protective of human health and the environment. OK review of these reports would have
                       assisted in evaluating and determining the effectiveness of the remedy and whctbcr modifications
                       and/or a new technology should be applied.

                            c. Page 3,lst full paragraph - Regarding the comment, “by the early 1990s regulators and
Revised                scientists began questioning the effectiveness of pumpand-treat systems.” the Army and other
                       Services/DOD were among those who began questioning the effectiveness, also. The Army’s
                       concern of the effectiveness of pump-and-ueat kd to the tkveloprncnt of guidance and policy on
                       implementing natural attenuation as a viable alternative. While mcognixing the limitations of
                       pump-and-treat, regulatory agencies wcrc still pushing for installation of pump-and-mat systems
                       to xldress groundwater restoration IO meet the Safe Drinking Water Act (SDWA) Maximum
                       Contaminant Levels (MCLs). which arc considered Applicable or Relevant and Approptiate
                       Rqtimnents (ARARs) under the Comprehensive Bnv ironmental Response, Compensation, and
                       Liability Acr (CERCLA).




                                                                        30
                                   Department of the Army, Assistant Chief of Staff
                                           for Installation Management Comments




DAIM-ED-R
SUBJECT: Review and Comment of Evaluation Report on D+rtmcnt             of Defense Waste Site
Groundwater Pump-and-Treat Operations (Project No. 6CB-OOS7)


     d. Page 3.2nd full paragtaph - The report states that ‘acvcral options or groups of options
are available to rcmcdiate contaminated groundwater: (1) provide in-ground treatment/
containment. (2) provide above ground trcatnxnt. (3) rcmove or isolate the source of
contamination, or (4) abandon the source of supply.’

           (1) Regarding option one (1). theta are cutrcntly no proven in-situ technologies for
treating chlorinated solvents in groundwatcr. Thue ate scmal tochnologics in dcvclopmcnt
which have potential. The Army has applied some of tbcsc in technology demonstrations to
further their deveiopment and acccptancc by tba regulatory agencies. Tbc Army would be
interested in reviewing the list of available technologiesrefcrrcd to in the report The Army
continually looks for promising technologies to dcmonstratc in the field. Under tbc Project
Reliance research and development effort, the Air Force is the load agency for development of
technologies to address temcdiation of groundwater contaminated with solvents and halogenated
organics.

           (2) Regarding option three (3). the Army has always ststsscdand implemented the
practice of source removal as the key step in reducing groundwater contamination. Any pump
and-treat system installed in the pas1has been accompanied by source removal to reduce the load
on the groundwater system. Tbe Army continues 90 focus on source removal or containment as a
key component of groundwater rcmcdies. including Natural Attenuation. As demonstrated at
Tobyhannr Army Depot, use of source removals dramatically incrcascs the rate of natural
attenuation by removing the continuing load oo the system.

            (3) Regarding option four (4). under CERCLA, once a remedy is determined to be
nquired to ddrtss excess risk to human bcahh or the environment, the rcrnedial alternatives
must be evaluated against nine established criteria. Among the criteria are the two dueshold
criteria of protection of human health and the environmcnt and compliance with applicable or
tzlevant and appropriate requirements (ARARs). In order for the ahcrnative to be evaluated
against the other seven criteria it must meet these thresholds. The key grouodwatcr ARAR is the
Maximum Contaminant level (MCL) established under the SDWA for the contaminant of
concern. Tbc alternative of abandoning the water supply would not comply with the ARAR and
as such, under CERCLA, could not be aaqkd. unless the ARAR is waived. Tbc Army has
only limited successin gaining regulatory concutrence in waiving ARARs baud on technical
impracticability.

     c. Page 3.3rd full pamgraph - The report atatcs that “existing teguJatory requiruucnu for
groundwater cleanup do oot mttt      for limitations in pumpand-treat technology.” The Artny
fully agrees with this statement. However. the cleanup ptogram is driven by these outdated
requirements over which the Army has no direct control. The Artny has madeprosrrss in




                                                31
               Department of the Army, Assistant Chief of Staff
               for Installation Management Comments



Final Report
 Reference




                       DAM-ED-R
                       SUBJECT: Review and Comment of Evahtation Report on Department of Dcfcnsc Waste Site
                       C3roundwatcrPumpand-Treat Operations (Project No. 6CB-0057)


                       promoting natural attenuation and is gaining regulatory ucepancc, but crh individual
                       application must repeatthe process of dcmonstmting its applicability.

                           f. Page 3.4th full paragraph -The mport’s discussionof Dense Non-aqueous Phase Liquids
Revised                (DNAPLs) is misplaced since the presenceof a DNAPL is &cady recognized by the EPA as a
                       prime rationale for approving a technical impracticability waiver of an ARAR.

                            g. Page 5, 1st paragraph - As discussedabove (paragraph d.l), the Army is continually
                       focusing its effort on cost saving methods to remove underground contaminates. Any cost saving
                       technology or policy identified by the DOD IG as a result of this evaluation will bc of great
                       benefit to the Army.

                            h. Page 5.2nd paragraph, “Number of Systems” - Ibe conclusion that DOD will continue to
                       introduce pumpand-treat systems at an increasing rate ignores the recent progress in gaining
                       regulatory acceptance of natural artcnuation and well head tteatmcnt as alternative remedies.
Revised
                       This change in direction began in FYW. the last year of the data presented in Figure I and the
                       year of the first decline in the number of new systc.mssince FY%. That drop in new systems is a
                       result of DOD’s own m-evaluation of the cost effectiveness of pump-and-mat systems and its
                       promotion of natural attenuation. The Army expects the rate of new systems to decline, and
                       anticipates the use of future pumpand-treat systems mainly for short term “hot spot” mass
                       removal to enhance natural attenuation.

                            i. Page 6. Open-ended Operations - The tcport again concludes that DOD bas no plans to
                       review the effectiveness of these systems. As stated in paragraph b above, the lead agency for
                       these cleanup actions is requited to evaluate the effectiveness of these systems at least every 5
                       years. The Army intends to use those reviews to look at alternative technologies as they mature
                       and to also evaluate the application of natural attenuation. Technical impracticability of meeting
                       ARARs will also be mtvahtatcd with the data in hand on the effectiveness or ineffectiveness of
                       the pump-and-treat mtttcdy.

                          j. Page 7.3rd paragraph, “Curtent Technology” - The report again refers to other
                      technologies without being specific. While the Army is involved with several technology
                      demonstrations addressing chlorinated solvent contamination in groundwater which “show
                      promise,” they all have limitations. The physical site conditions that limit the removal of
                      solvents from the soil or bedrock matrices of the aqttifets also limit the effectiveness of inaitu
                      nmcdies.

                           k. Page 8. 1st paragraph - Again, the repott fails to note the curmat ditcctiott of the Army
Revised                and other services in ptomoting nannal attenuation. The Army requims all feasibility studies to




                                                                        32
                                   Department of the Army, Assistant Chief of Staff
                                           for Installation Management Comments




DAIM-ED-R
SUBJECT: Review and Comment of Evaluation Repott on Department of Defense Waste Site
Groundwater Pump-and-Treat Operations (Project No. 6CB-0057)


evakate the application of natutal attenuation and document rationale in the ROD if it is not
selected. The repott assumes that pumpand-ttcat is the “method of choice” for DOD while the
work over the past two years clearly shows the opposite.

      1. Page 8,2nd paragraph -The npott accurately portrays the status of tcplacerncnt
technologies as “not likely to be proven technologies for mother 10 to 20 yt~” after rcpertedly
criticizing DOD for not impkmcnting them 5 or 10 years ago.

     m. Page 8.2nd paragraph - Regarding the application of application of phytoremcdiation,
the Army has successfully demonstmtcd this technology and has applied it to two NPL sites
(Milan and lowa AAP (explosives)). However, there arc severe limitations to this technology:
(1) limited to treatment of shallow groundwater unless extracted for above-ground tmatment, (2)
climate limits. The Army promotes the use of phytommediation where it is feasible.

     n. Page 12, 1st full paragraph - Agree with the need to invest in the development of now
technologies to nplace pump-and-treat systems to save tcsourccs in the long term. However. the
current limitations on research and development funds do not support that position. The Services
are increasingly dependent on private research into these problems and adopting tochndogies as
they become available. The limited R&D funds available to restoration problems are being
funnckd into demonstrations of privately developed technologies. Although this is a ptactical
use of limited resources, it limits DOD control over the future of technologies that may solve its
problems.

3.   Responses to Recommendations for Comctive Action.

      a Recommendation: Re~vahtate the ratiorude to use pump-and-treat systems at existing
sites to determine if they are the best method of tcmedktion.

       Response: Agree. The Army intends to re-evaluate all long-tetm remedies as required
unkr the NCP (S-Year Reviews), including existing pumpand-treat systems. These rcvicws are
conducted in coordination with the regulatory agencies and the Public repmscntatives of the
Technical Review Committees and/or Restoration Advisoty Boards. As pat? of the S-Year
Review process, issues such as the appropriateness of technical impracticability waivers for
ARARs. application of natural attenuation. and application of emerging technologies will be
&dressed.

     b. Recommendation: Develop a systematic approach in cooperation with environmental
regulatots, the scientific community, and the public to determine alternative. more effective
methods for future gtmtndwater ckanup.




                                                33
Department of the Army, Assistant Chief of Staff
for Installation Management Comments




       DAIM-ED-R
       SUBJECT’: Review and Comment of Evaluation Report on Ikputment           of Dcfensc Waste Site
       Gromdwater Pump-and-TIUU Gpmtions (Project No. 61334057)


               Response: Agree. The Army and other Services have been actively searching for
       alternative cleanup technologies in cooperation with the EPA and the scientific Community.

               The Army’s technology program is structuredto addressthe mtds of the user (Army
       installations). Development of enhanced altemadve and in-situ tmatmcnt technologies for
       solvents and halogenatcd organics in gmundwater is cummtly among the top five restoration
       requirements. along with Unexploded Ordnance (UXO) detection and nmcdiation, technologies
       and in-situ technologies for treating explosives in groundwakr. and three other areas of high
       potential cost avoidance. The other top priority is dcvelopmcnt of protocols for dctemkting the
       applicability of natural attenuation, which also direcdy suppottsthe Army’s direction away from
       pump-and-treat technology.

              The Army, through the Army Science Board, has also dcvclopcd guidance for
       determining t&e applicability of natural attenuation to groundwater contaminated with solvents.
       This guidance was patterned after the Air Force’s successfulguidance on natural attenuation of
       petroleum products in groundwater. The Army has coordinated the guidance with the EPA to
       gain its acceptance and suppott. The EPA has. in parallel, developed its own policy on
       “Monitored Natural Attenuation” which will support the application of natural attenuation. The
       Army has been successful a1 Sierra Depot and Tobyhanna Army Depot in gaining ngulatory
       approval and community acaptana of natural attenuation. The Army requires all feasibility
       studies addressing groundwater to include an evaluation of tbc applicability of natural
       attenuation. If natural attenuation is not the selected remedy for groundwater contamination, the
       Anny rcquirrs documentation of the rationale within the ROD.

            The Army Science Board has recently completed a thorough evaluation of Army
       groundwater trealmcnt systems. The rcporr is in final draft form and will lx used by the Army in
       developrum of Army guidance for groundwater treatment optimixation.




                                                       34
Department of the Army,
Corps of Engineers Comments




     CENWO-Hx-G                                         9 January 1990


     MEMORANDUM FOR Office of Assistant Inspector General for
                      Auditing, DoD, ATTN: GAIG-AUD (Mr. Michael
                      Hcrbaugh), 400 Army Navy Drive (Room 8011,
                      Arlington, VA 22202-2884

     SUBJECT: Rvaluation Report on DoD Waste Site Ground Water   Pump-
     and-Treat Operations
-

     1. We are providing comments on the subject report dated 21
     October 1997. The U.S. Army Corps of Engineers (USACE),
     Hazardous, Toxic, and Radioactive Waste Center of Expertise (RTRW
     CX) appreciates the opportunity to review the report. These
     comments reflect the opinion of the USACE WTRW CX.

     2.   General Commenta:

         a.  The HTRW CX recognizes the limitations of pump and treat
     technology and takes an active role in advocating the use of
     alternative and innovative technologies where appropriate. In
     fact, the Army Corps of Engineers has an innovative technology
     advocacy program in place to assure the consideration of
     alternative technologiee. However, the RTRW CX hae concerns that
     the report's presentation of the strengths and weaknesses of pump
     and treat may not be adequately balanced.

          b. Without further information on the sites included in the
     study, it is difficult to evaluate the report's conclusions.
     Note that many pump and treat systems have been installed for
     containment purposes only, which is umually indicative of an
     interim corrective action. This often prevents impacts in the
     short term; however, it results In systems that are not demigned
     for  rapid cleanup. The projected life spans and costa for the
     eyetema studied may, in fact, be biaeed toward long operating
     periode. The USACE HTRW CX is well aware of the limitations to
     fully retnediateoites with pump and treat systems and agrees that
     even more aggreeeive pump and treat deeigns may also take decade6
     or longer to clean the subsurface, if it ie even possible.




                                  35
Department of the Army, Corps of Engineers Comments




         CENWO-HX-G
         SUBJECT: Rvaluation Report on DoD Waete Site Ground Water Pump-
         and-Treat Operations


             C.  Based on USACE experiences, there are rites where pump
         and treat is the only realistic economic alternative,
         particularly where the contamination is widely distributed and
         very deep. Some sites have ground water contamination spread
         over nine square miles and others have ground water contamination
         to depths of 400 feet or more. Costs for applying many
         innovative technologies to these types of sites could be
         astronomical.

             d. It must be noted that the use of alternative technologies
         may represent a significantly larger outlay of capital than the
         present-worth cost of the operations of the pump and treat
         system. Thus, even though the operating costs for pump and treat
         are often significant, they may be smaller than the alternatives
         when compared on a present-worth basis. The innovative
         technologies also have operation and maintenance costs. The full
         magnitude and long-term cost of O&W on some of these "young"
         technologies, such as permsable reaction walls (PRWs), has not
         been completely determined yet. Some O&M costs, such as
         monitoring point installation and sampling and analysis, would be
         incurred regardless of the technology. As a result, the
         difference in capital costs between pump and treat and other
         technologies become even more significant in determining the most
         cost effective alternative. The selected remedy, whatever it may
         be, must make economic sense.

             e.   Although a purely objective, technical approach to
         selecting a cost-effective remediation alternative would seem to
         be preferred, this may require a shift in thinking on the part of
         many of the parties involved in these projects. In some cases,
         for example, the pump and treat technology may have been selected
         because it represented the most immediately affordable
         alternative for the customer who had limited funds available that
         fiscal year. If alternative technologies were to be chosen, the
         capital costs may have been higher, even though total long-term
         operating costs may be much lower. This increased demand for
         "up-front* dollars may result in fewer cleanup starts in a given
         year if funding levels are fixed. The concept of initiating
         remediation at fewer sites per year with current funding may be
         unpalatable to the public and regulatory agencies involved.


                                           2




                                      36
             Department of the Army, Corps of Engineers Comments




                                                                    Final Repon
                                                                     Reference




CEWWO-HX-G
SUBJECT: Evaluation Report on DOD Waete Site Ground Water Pump-
and-Treat Operation6



    f. The USACE HTRW CX is concerned there may eventually be an
unwarranted policy promulgated by DoD that prohibits the use of
pump and treat aB a cleanup technology. Any policy must
recognize the limitatione of the alternatives to pump and treat
and should require the evaluation of the uBe of pump and treat on
economic and technical grounds on a Bite-by-Bite basis.

    g. The USACE HTRW CX ia currently undertaking an initiative
to provide evaluations of existing remediation Byateme, including
pump and treat Bystems. Thie initiative grew from an HTRW CX
concern that the operatore of many ByBtemB were inadequately
considering the achievement of remediation goals. Instead, they
were looking only at maintaining the status quo. The initiative
will be focused on using the technical capabilities and
experience of the various USACE districta to provide
recommendatione to the inetallations that would reduce coBtB
associated with operating the Byeternsor to replace or Bupplement
the system with appropriate alternative technologiee that offer
life-cycle coet savings. A list  of districts and potential
candidate sites is being developed. Ultimately, the HTRW CX may
provide guidance and support services to the dietricts for
performing these evaluations.

3.   Specific Comments:

    a. Executive Sunnaary,firet bullet. Some or many of the 75
systems evaluated for thie report were not intended to reach        Revised
clean-up goale. The objective was often only to prevent further
migration. This must be addreeeed in the report. Aleo note that
many of these Bitee were designed before meet of the innovative
technologies were available, when pump and treat wao the only
practical (ae well ae financial) alternative. Also,  what is the
design life (cleanup time) of the exiBting Byetema? If the
deeign life ie 30 years and the Byetem has only been operating 10
years, it follows that the intended cleanup goal would not have
been reached. This should not be conetrued as a failure of the
pump and treat Bystem to operate effectively or to meet its
cleanup goal. The report  Bhould acknowledge that few if any of
the ByBtemB evaluated have had Bufficient operational time to
meet their cleanup goals.

                                  3




                             37
              Department of the Army, Corps of Engineers Comments




FinalReport
 Reference




                       CEWWO-x3x-o
                       SUBJSCT: Evaluation Report on DOD Waste Site   Ground   Water   Pump-
                       and-Treat Operations


                           b. Page 2. The *financial concerns0 lxpreaaed here ahould
                       reaulte in a focus on adequate control of contractor costs
                       through adequate technical oversight by Government personnel.

                           C.  Page 2. Exception la taken to the statement '...there ie
                       no requirement to revieit active pump-and treat (sic) ayetema at
Revised                DOD sites:   EPA OSWER Directive 9355.1-02 requirea a review
                       every five years of CERCLR/SARA sites. Cleanup programs at many
                       DOD inetallatione are being performed under CERCLh/SARA,
                       therefore making them subject to this review. Also, moat if not
                       all pump and treat sites are eubjected to quarterly, semi-annual,
                       or annual ground water monitoring to determine effectiveness of
                       the syatem. Data ie being collected. What is lacking ia a
                       systematic evaluation of that data (and funding for it), and the
                       authority (through regulatory channels) to discontinue pump and
                       treat rystcma when cleanup goals are met.

Revised                    d. Page 3, eecond full paragraph. Treated water can also be
                       discharged to surface water bodies with appropriate pennite.

                           e.  Page 3, second full paragraph, item (1). In-ground
Revised                treatment of ground water waa generally not an option until two
                       years ago.  Thie should be noted in the report, especially since
                       mo6t of the existing pump and treat eyetema were inetalled before
                       this time frame.

Revised                    f.  Page 3, fourth full paragraph. TCE id a aolvent rather
                       than a hazardous material found in the eolvents.

                           g. Page 3, fourth full paragraph, laet sentence. This
                       sentence atatee that organic liquids do not mix with water and
                       are denser than water. Many organic liquids, including TCE, are
Revised                soluble in water. Only when the concentration of the organic
                       liquid exceeds ite solubility in water do they not %ix~, and
                       only then does the liquid'6 demaity become a factor. Pump and
                       treat systems take advantage of the solubility of the organic
                       liquids, and their effectivename is aleo related to that
                       solubility. Few if any pump and treat ayatema have been
                       installed to control or remove pure product or DNAPL from the
                       ground aa thia paragraph implies. Instead, pump and treat
                       eysteme are installed to remove the diesolved phase of these

                                                         4




                                                    38
             Department of the Army, Corps of Engineers Comments




                                                                     FinalReport
                                                                      Reference




CENWO-Hx-G
SURJRCT: Evaluation Report on DOD Waste Site Ground Water Pump-
and-Treat Operations


organic liquids: It is this point that makes source removal an
integral part of a Bucceseful pump and treat system. Without
Bource removal a pump and treat Byetem may never reach full
cleanup of an lguifer. Thie is not a failure of the pump and
treat system; it is a failure to implement a well-rounded
remedial action plan using complementary technologiee.

    h. Page 5, first paragraph, first sentence. The report
should acknowledge that feasible wtivc        methods for
remediating contaminated ground water did not exiet until a few
years ago.   Therefore, the statement that "alternative
methods.. .might remediate contaminated groundwater more
effectively" is misleading. Also,   this paragraph (particularly
the third Bentence) implies that the Belection of the remediation
method was made in a vacuum, without the involvement of or input
from the public and regulatory agencies. Therefore, while pump
and treat may not appear to be "the moat effective means to          Revised
restore the environment' at fhia time, for all practical  purposes
it was the only means available and acceptable to the
public/regulatorB at the time of implementation.

     i. Page 5, second paragraph. As Btated later in the report,
48 of the 75 pump and treat syetems are claeeified ae interim
remedial measurea, or nearly two-thirds of existing systems. By
definition, these are not intended for long-term operation.
Therefore the assumption that ‘It ir expected that most of those
eyetems will continue to operate for many years into the future"
appears to be in error, or at the very least deBcrYing of
additional verification. This Bhould be acknowledged in the
report.

    j.  Page 6, Figure 1. The report should note that permeable
reaction walla (PRWB) using zero-v&lent iron were first applied
in the 1995-1996 time frame. PRWs are probably the most
promising technology for removal of chlorinated solvents such as
TCE in Bhallow ground water. Note that the number of pump and        Revised
treat syBtems put into Operation in 1996 ie significantly lower
than in 1995, perhaps an indication of the more widespread
acceptance of alternative technologies in the mid-1SSO'B.




                                  5




                             39
               Department of the Army, Corps of Engineers Comments




Final Report
 Reference




                        CEWWO-I-DC-G
                        SURJRCT: Rvaluation Report on DOD Warrtt   Site Ground Water Pump-
                        and-Treat Operations


                            k. Page 6, eecond paragraph. Selection of pump and treat aa
                        an interim action usually indicate6 an acknowledgment that the
                        method is perhaps not the beet for cleaning up the cite, hence
                        its taelectionaa a temporary meaeure. The whole purpoee of an
                        rnterlm action ie to stop migration or reduce potential exposure
                        while a more thorough or effective remedy ie investigated or
Revised                 designed. In many caaea the interim actions are put in place in
                        reeponee to political pressure, and are not designed to remediate
                        the aquifer. While the wisdom of doing 80 may be questionable,
                        it ie an incontrovertible fact that public involvement and
                        acceptance plays a role in remedy oelection. The report fails to
                        acknowledge these realities and ehould note that the interim
                        action may not have a cleanup goal per se; the goal may only be
                        to reduce contaminant migration, not to remediate the aquifer.

                           1. Page 7, second full paragraph. The limitations of pump
                       and treat do not ariee from the difficultice in removing
                       cmtaminants from the water, or getting the water out of the
                       ground, but from the very difficult job of getting the
                       contaminant out of some of the ooil in the subsurface. The
Revised                contaminants often *hide" in soils that do not allow water to
                       pase through easily and the contaminante aleo sorb to come degree
                       onto the soil particles. As a result, the contaminants are
                       released very slowly into the water that is being punped by the
                       pump and treat system and much more water than originally cxieted
                       in the contaminated volume must be passed through the eoil to get
                       the contaminants out. Combined with the long times required to
                       remove a given contaminated water volume from the eubsurface at
                       sites with low permeability ooile, this can retrultin remediation
                       timee that are quite long.

                           m. Page 7, second full paragraph, last sentence. Ume of the
                       past tense in this sentence ('AB a result of thoee limitations,
                       ...*I illustrate6 that many pump and treat mystem were already
                       in place before new technologies became available. The report
                       should acknowledge the fact that new technologies have become
                       available only within the last two to three years, during which
                       time the number of new pump and treat system imtallationa ham
                       decreaeed dramatically.



                                                           6




                                                      40
             Department of the Army, Corps of Engineers Comments




                                                                     FinalReport
                                                                      Reference




CRNWO-m-0
SUBJECT: Rvaluation Report on DoD Waste Site Ground Water Pump-
and-Treat Operations


    n. Page 7, third full paragraph. The accuracy of the
statement that the regulator8 or public -have been slow to
recognize and approve new approachee" needs to be verified.     It
has been the experience of the RTRW CX that, uhc?rp                  Revised


open to new technologiee. It is where the rieke of failure of
the new technology appear significant that there may be
reluctance on the part of the regulators. Responeible technology
ecreening and deeign can overcome this hurdle on specific
projects.

    o. page 8, first paragraph on page. This paragraph Implies
that pump and treat ie chosen "automatically* ae the remediation     Revised
method at DoD sites. All eitee are subjected to an analysis of       Page 7
available remediation alternatives, and remedy selection is
periormed in conjunction with the regulator6 and the public. In
some cdaes ("fast track project&') pump and treat syetema are put
in place to reduce contaminant migration'while a more thorough
evaluation of remedial measures ie undertaken. This should be
acknowledged in the report.

    p. Page 8.  Suggest you add "air eparging" to the list of        Revised
promising technologiee for certain eitee.

    9. page 8, last paragraph. The report should diecuss how
much of the 272 increase in operating costs since 1986 is the        Revised
result of inflation and how much reflects true increases in
operation costs.

    r. Page 10, first paragraph, last sentence. The conclusion
reached in this sentence doe8 not neceeearily follow from the
figure below it. The tatrl        presented in Figure 2 are a
function of the total number of mystemrrin operation. Much of
the increaoe in O&W costs after 1994 is the reeult of 24             Revised
additional lrystemabeing brought online in 1995 and 1996.
Therefore it ie mieleading to imply that OW costa will continue
to increase at the lame rate as that shown in the figure when the
number of new pump and treat ayateme ie declining (only 7 aymtema
brought online in 1996 compared to 17 eystema in 1995).


                                  7




                             41
